                              Scope and Methodology
         As of September 30, 2002, the Defense Contract Audit Agency (DCAA) had a
total of 3,528 auditors located throughout headquarters, 5 regional offices, Field
Detachment (classified audits) and 79 field audit offices (contractor and branch office
locations). During that year, DCAA completed 40,045 assignments, valued at
$250.6 billion, with net savings of $2.5 billion. DCAA implemented a new quality
assurance program beginning in FY 1999 and established a 3-year cycle for conducting
quality assurance reviews. DCAA categorized its workload into four major categories:
forward pricing assignments; internal control reviews; incurred cost audits; and all other
(miscellaneous grouping of all other type audits). DCAA also performed a separate
review covering some aspects of the General Standards.

        Because the quality assurance system was new, we reviewed the DCAA quality
assurance reviews as they were completed throughout the 3-year cycle, instead of waiting
until FY 2002. Completing the reviews throughout the cycle allowed DCAA quality
assurance staff and us to work proactively to revise processes, as needed, as they
performed the quality assurance reviews. This approach helped to improve the DCAA
quality assurance program as it was developed. In performing the quality control review
of such a large organization, numerous meetings were held including joint planning
meetings before each DCAA audit area was reviewed. We also re-tested assignments and
reviewed assignments that DCAA quality assurance did not review.

        We based our review of the DCAA quality assurance program on the Government
Auditing Standards relating to quality controls; General Accounting Office
GAO/OP-4.1.6, “An Audit Quality Control Systems: Essential Elements,” August 1993;
President’s Council on Integrity and Efficiency (PCIE) “Guide for Conducting External
Quality Control Reviews of the Audit Operations of Offices of Inspector General,”
January 2002; DCAA strategic goals and objectives; and DCAA policies and procedures
in force from June 1992 through July 2003.

        We also included DCAA audits, performed as part of a single audit under the
requirements of Office of Management and Budget Circular No. A-133, in assessing
whether the quality control system was effectively implemented. DCAA excluded these
audits from their quality assurance reviews because we performed quality control reviews
as part of our cognizant agency responsibility.

       Our overall unqualified opinion is based on the following reviews of the DCAA
and the Memorandum of Comments and Observations.

       IG DoD Report No. D-2004-6-001, “Defense Contract Audit Agency Quality
       Assurance Review of All Other Audits,” October 21, 2003

                                                                               Attachment
                                                                               Page 1 of 2
       IG DoD Report No. D-2003-6-003, “Defense Contract Audit Agency Quality
       Assurance Review of Incurred Costs,” December 20, 2002
       IG DoD Report No. D-2003-6-002, “Summary of Quality Control Review of
       Office of Management and Budget Circular A-133 Audits,” November 8, 2002
       IG DoD Report No. D-2002-6-007, “Defense Contract Audit Agency Quality
       Assurance Review of Internal Control System Audits,” August 6, 2002
       IG DoD Report No. D-2002-6-005, “Defense Contract Audit Agency Regional
       Quality Assurance Review of Incurred Cost Sampling Initiative,” April 16, 2002
       IG DoD Report No. D-2002-6-004, “Report on Quality Control Review of
       KPMG, LLP, and DCAA Office of Management and Budget Circular A-133
       Audit Report of Illinois Institute of Technology Research Institute, FY Ended
       June 30, 1997,” March 28, 2002
       IG DoD Report No. D-2002-6-003, “Report on Quality Control Review of DCAA
       and KPMG, LLP Office of Management and Budget Circular A-133 Audit Report
       of SRI International, FY Ended December 25, 1999,” January 14, 2002
       IG DoD Report No. D-2002-6-001, “Defense Contract Audit Agency Quality
       Assurance Program,” December 6, 2001
       IG DoD Report No. D-2001-6-005, “Report on Quality Control Review of
       Deloitte and Touche, LLP and DCAA for Office of Management and Budget
       Circular A-133 Audit Report of Pennsylvania State University, FY Ended
       June 30, 1999,” May 1, 2001
       IG DoD Report No. D-2001-6-004, “Report on Quality Control Review of
       PricewaterhouseCoopers, LLP, and DCAA for Office of Management and Budget
       Circular A-133 Audit Report of Massachusetts Institute of Technology, FY Ended
       June 30, 1999,” March 22, 2001

IG DoD reports can be accessed at http://www.dodig.osd.mil/audit/reports.




                                                                            Attachment
                                                                            Page 2 of 2
                           Comments and Observations
       As a result of our review, we have the following comments and observations that
were considered but did not affect our overall opinion.

Noteworthy Accomplishments

        From FY 1999 through FY 2003, DCAA dedicated an average of 17.3 staff years
annually to implement the new quality assurance program. This significant time and
effort was spent on planning and performing the quality assurance reviews; following up
on the identified deficiencies at certain field audit offices (FAOs); formulating corrective
actions such as revised risk assessment procedures; and coordinating with the OIG on
every phase of their review program. During the 3-year cycle, DCAA visited almost all
field audit offices and reviewed more than 400 audit assignments in the 4 major audit
areas—forward pricing, internal control reviews, incurred cost audits, and “all other”
audits. DCAA also conducted a separate review of General Standards (Qualifications
and Independence). As we completed our reviews and identified various deficiencies,
improvements, and enhancements to the quality assurance program, the headquarters
Quality Assurance Division worked with us in a constructive manner to implement our
recommendations and suggestions. Over the last 4 years, the quality assurance staff has
gained extensive experience and demonstrated a highly professional approach to
performing the internal quality assurance function. Their efforts in identifying
deficiencies, formulating and expediting corrective actions, briefing management, and
following up on deficiencies have significantly improved the DCAA quality control
system and DCAA audits.

Issues Identified in Quality Assurance Reviews and IG DoD Reports

        The DCAA quality assurance reviews and the IG DoD reports (listed in Opinion
Report D-2004-6-003, Attachment, dated December 15, 2003) identified significant
issues related to compliance with Government Auditing Standards (GAS). In response to
the identified issues, DCAA implemented numerous and extensive corrective actions.
The main issues related to:

           audit planning,
           audit evidence,
           working papers,
           continuing professional education (CPE),
           supervision,
           noncompliances and illegal acts,
           quality control, and
           reporting on agreed upon procedures.
                                                                              Attachment 1
                                                                                Page 1 of 4
       The corrective action they took included developing training, revising the DCAA
Contract Audit Manual (CAM), revising standard audit programs, changing and
improving the Automated Planning and Performance System, developing a new working
paper checklist, and emphasizing documentation requirements and quality control
procedures.

       Our quality control reviews of single audits found that DCAA did not adequately
plan and perform the review of internal controls over compliance and compliance with
the requirements for major Federal programs. We had to obtain significant oral
explanations as well as perform additional review procedures to determine that the audit
of Federal programs met the intent of Office of Management and Budget Circular
No. A-133 requirements. Recommendations and corrective actions specific to the
reviewed audits were addressed in our reports.

       Details on the issues and corrective actions taken are discussed in the body and
appendixes of the IG DoD reports. Continued diligence in these areas is necessary to
maintain an effective quality system.

OIG Issues Not Previously Reported

           Scope of DCAA Quality Assurance Review of General Standards

        Our review identified a deficiency in the planning and implementation of the
DCAA quality assurance review of the GAS General Standards. DCAA covered some of
the aspects of the General Standards (Qualifications, Independence, and Due Professional
Care) as part of their four headquarters-led internal quality assurance reviews of forward
pricing, internal controls, incurred cost, and “all other” audits. DCAA included questions
on its review checklists covering due professional care, external impairments to
independence, and staff qualifications. In addition, during its headquarters-led internal
quality assurance review of “all other” audits, DCAA tested CPE and specialized
training. DCAA planned to cover certain other aspects of Independence and
Qualifications standards during the separate review of GAS General Standards. DCAA
collected information on the various policies and procedures that implemented the
selected aspects of the Qualifications and Independence standards and analyzed the
procedures to determine what other oversight mechanisms were in place to monitor the
applicable policies and procedures. DCAA did not perform any independent testing to
determine whether they were complying with the various requirements specified in the
Qualifications and Independence standards. Recommendation: The Director, Defense
Contract Audit Agency revise the quality control program to include testing or
monitoring of the various policies and procedures relating to hiring, career development,
staff qualifications and assignment, ethics program, auditor rotation program, and auditor
independence requirements.

                                                                            Attachment 1
                                                                              Page 2 of 4
           Staff Qualifications

        Our review of staff qualifications found that 3 of 26 new supervisory auditors
failed to take Course 8562, “DCAA Personnel Management” (or the previously required
course if applicable) within their first 6 months as supervisors as required by the
Supervisory Development Curriculum listed in Chapter 21, Training and Development,
of the DCAA Personnel Management Manual. Recommendation: The Director,
Defense Contract Audit Agency review the requirement to obtain supervisory training
within the first 6 months to determine whether this time frame is practicable and to
ensure that newly promoted supervisors obtain the required training within the time frame
established.

           Continuing Professional Education

        During our initial review of the DCAA quality assurance program, we identified
deficiencies in how DCAA granted and documented CPE for staff conferences and that
DCAA did not track or have CAM guidance on the requirement that 24 hours of the
required 80 hours be in a subject directly related to the government environment and to
government auditing. Based on discussions with DCAA, they corrected the deficiency on
granting and documenting CPE; however, the CAM still does not address the 24-hour
requirement. Recommendation: The Director, Defense Contract Audit Agency revise
the Contract Audit Manual to add the requirement that 24 of the 80 continuing
professional education hours be in subjects directly related to government environment
and to government auditing.

           DCAA Ethics Program

         We reviewed the DCAA ethics program in the external peer review because
DCAA references the DoD Directive 5500.7, “Joint Ethics Regulations” (JER) in its
general audit guidance on complying with the GAS on Independence (CAM 2-203 b).
Also, DCAA audits nongovernmental entities (Defense contractors); therefore, issues
addressed in the various ethics laws and regulations can directly relate to the
requirements in GAS on personal impairments to auditor independence. The DCAA
ethics program needs greater emphasis and visibility to ensure that all employees
understand the requirements of the various laws and regulations related to ethical
behavior. Our review identified some requirements of the ethics program that DCAA did
not consistently comply with. Specifically, DCAA needed to ensure that the required
letters of delegations were issued, that all new employees entering covered positions filed
the required OGE Form 450 (Confidential Financial Disclosure Report) timely, and that
required documentation for initial ethics training for new hires is properly maintained.
The Designated Agency Ethics Official (DAEO) has already acted to correct these
deficiencies. In addition, we identified some best practices that would improve the
visibility and effectiveness of the DCAA ethics program. The DAEO has informed us

                                                                             Attachment 1
                                                                               Page 3 of 4
that many of the best practices such as an employee survey, written policies and
procedures on responsibilities, articles for the DCAA Bulletin, a Web site for the ethics
program on the DCAA intranet, enhancements to new employee initial ethics orientation,
employee self-certification of annual ethics training, and an ethics segment as part of
appropriate DCAA courses are already planned for implementation or being considered.

         Additionally, we consider enhancements to the DCAA ethics training program to
be of utmost importance. Specifically, the JER requires an agency to provide an annual
ethics briefing to all employees in a covered position (JER 11-301). Currently, DCAA
requires an annual ethics briefing only for those employees required to file a financial
disclosure form (GS-13s and above and impact card holders). However, two regions
have recognized the importance of annual ethics training and instituted the requirement
that all auditors and supervisors receive an annual ethics briefing or training. The JER
(Chapter 11) allows the agency to provide ethics training to noncovered employees, and
one recognized best practice is to train nonfilers as well. Recommendation: The
Director, Defense Contract Audit Agency adopt annual ethics training for all employees.

           Professional Standards and Ethical Issues

        DCAA also needs to improve the process for monitoring auditor independence.
The new GAS on independence, Amendment No. 3, imposed additional requirements
effective January 1, 2003. Although our review covered audits performed before the
implementation date of this revision, discussions with DCAA identified the need for a
point of contact for Independence and other professional auditor ethics issues separate
from the DAEO. DCAA should designate a specific agency headquarters position
responsible for providing guidance and answering questions related to auditor
independence and other professional ethics issues. The appointee should coordinate
closely with the DAEO since conflicts of financial interest and impairments to
independence are closely related for DCAA employees. All DCAA employees should be
notified and periodically reminded of who to contact and what the procedures are for
obtaining information and advice on independence and professional ethics issues.
Recommendation: The Director, Defense Contract Audit Agency designate a specific
agency headquarters position responsible for providing guidance and answering questions
related to auditor independence and other professional ethics issues.




                                                                            Attachment 1
                                                                              Page 4 of 4
